IN THE
SUPREME COURT OF THE UNITED STATES

JOSE YEYILLE —PETITIONER
v.

ARMANDINA ACOSTA-LEON; et al—RESPONDENTS

PROOF OF SERVICE
I, Jose Yeyille, do swear or declare that on this date, August 17, 2021,
as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI to those parties’ counsel and on every other
person required to be served, including the Attorney General of Florida pursuant
to 28 U.S.C. §2403(b), by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first-class postage prepaid mail for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Walter J. Harvey, School Board Attorney,
The School Board of Miami-Dade County
Florida 1450 NE 2nd Avenue,
Room 430, Miami, FL 33132

42

Luis M. Garcia, Esq.
Attorney forDefendantsSchoolBoard and
Superintendent Alberto Carvalho,
Deputy Assistant School Board Attorney,
The School Board of Miami-Dade County
Florida 1450 NE 2nd Avenue,
Room 430, Miami. FL 33132

Sara M. Marken, Esq.
Attorney for Defendants Robertson, Acosta-Leon,
Asuncion Valdes, and Egna Rivas.
Assistant School Board Attorney
The School Board of Miami-Dade County
Florida 1450 NE 2nd Avenue,
Room 430, Miami, FL 33132

Office of the Attorney General
State of Florida
The Capitol PL-01
Tallahassee, Florida 32399-1050

Department of Financial Services,
200 E. Gaines Street,
Tallahassee, FL 32399

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 19, 2021

JY
Jose Yeyille

43

